-                              -
                      CLOSEOUT FOR M92040015




--
     This case came to O I G on April 22, 1992, when we received a
message from b _-~_    -      , a program officer in the Division of
                             -          at NSF, headed by IIJ,
=
h
e              divxion director). The case concerned ~ r o ~ o s a l
                                                          A   a.

              submitted. by                             (Subject #1)
                                               /




,                   and '                     of -    3    -
            (the                    titled
                                   . This proposal had been sent to
                (the complainant) of                      for review.
     The complainant read the proposal and was concerned that the
subjects used a R-
                 _
                 c         that was in some unspecified sense his
intellectual property in their experiments. He expressed this
concern to the subjects, who brought the matter to the attention of
the program officer over one month before she.brought it to O I G .
According to the program officer, Subject #1 told her that the
complainant demanded that the subjects withdraw the proposal and
rejected their offer to make him a co-P.I. The program officer
asked Subject #1 whether theD-a        was central to the proposal
and ascertained that it was not. She advised the subject to wait
a few days to see whether the complainant reconsidered. She
further advised that, if he did not, the subject should withdraw
the proposal and resubmit it using a different .                The
program officer then consulted her division director to discuss how
they could facilitate a speedy review for the forthcoming revised
proposal.
     The subjects withdrew the proposal within a week of
Subject #lrs conversation with the program officer. Approximately
two weeks later, the complainant called the program officer and
attempted a ruse to determine whether the proposal had indeed been
withdrawn. The complainant followed this with a letter apologizing
for his ruse and claiming that he and the subjects had collectively
agreed that the proposal should be withdrawn. After receiving this
letter, the program officer contacted O I G .
     O I G repeatedly contacted the complainant and requested more
information from him to ascertain whether there was an allegation
of misconduct in science here and in what that allegation
consisted. When the complainant did not comply with our requests,
we wrote to him setting a deadline for his response, but offering
to extend the deadline if he needed more time to fashion an
adequate reply. O I G lacks the information to pursue this case
without the complainant's cooperation, and the deadline has passed
without the complainant replying. We therefore have no alternative
but to close this case.
     On May 13, 1992, O I G issued a bulletin (No. 92-01) that
instructs NSF program staff how to handle allegations of misconduct
in science.    That bulletin explains that all such allegations
                           page 1 of 2
should be referred immediately to OIG, and that program staff
should not attempt to resolve these matters themselves. Shortly
after OIG received this case, OIG staff met with the program
officer and the division director to make sure that they understood
that their handling of this matter was contrary to NSF policy and
that they knew how to handle allegations of misconduct in the
future. When we informed the program officer and the division
director that the case was closed, we reminded them that misconduct
matters should be brought to OIG promptly and that informal
agreements to withdraw proposals were not an appropriate way to
deal with allegations of misconduct.

      This case is closed and no further action will be taken.




Staff Scientist, Oversight
Concurrence:



Donald E. Buzzelli
Deputy Assistant Inspector General for Oversight




Assistant Inspector General for Oversight



Montgomery K. Fisher
Counsel to the Inspector General


cc:   Signatories
      Inspector General




                             page 2 of 2
